HHS/OIG, Audit - "Audit of Medicare Adjusted Community Rate Proposals Submitted by 55 Medicare+Choice Organizations for Contract Year 2000," (A-09-01-00051)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Adjusted Community Rate Proposals Submitted by 55
Medicare+Choice Organizations for Contract Year 2000," (A-09-01-00051)
July 15, 2002
Complete
Text of Report is available in PDF format (633 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes the results of our reviews, made at the request
of the Centers for Medicare & Medicaid Services (CMS), of 186 adjusted community
rate proposals (ACRPs) submitted by 55 Medicare+Choice (M+C) organizations for
Contract Year 2000. In general, we found that: 49 percent of the ACRPs were
not prepared in accordance with CMS instructions; 66 percent contained errors
that affected at least one of the three components of the adjusted community
rate (direct medical care, administration, or additional revenues); and 36 percent
overstated the beneficiary premium/cost sharing amounts and/or did not provide
additional benefits. We were unable to determine an overall dollar effect of
the miscalculated ACRPs, however, there could have been a significant impact
on (1) payments made by the M+C organizations to their providers, (2) out-of-pocket
expenses of the beneficiaries, and (3) amount of profit earned by the M+C organizations.
Among other things, we recommended that CMS (1) reiterate to M+C organizations
the importance of following CMS instructions in preparing the ACRPs, (2) work
with the M+C organizations to have them develop corrective actions to address
the deficiencies noted in our audits to ensure that future ACRP submissions
are correct, and (3) perform follow-up evaluations of such actions. The CMS
generally concurred with our recommendations.